Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants to the Orange County, Florida, Sheriff's Office

Report No. GR-40-03-005


January 2003
Office of the Inspector General


EXECUTIVE SUMMARY

The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the Orange County, Florida, Sheriff's Office (OCSO).  The purpose of the grants is to enhance community policing.  COPS awarded the OCSO $20,013,351 to hire 232 new deputies and redeploy the equivalent of 103.5 existing full-time deputies from administrative duties to community policing.
We reviewed the OCSO's compliance with seven essential grant conditions and found the grantee's budgeting for officers, hiring of officers, source of local matching funds, retention of officer positions, and types of community policing to be acceptable.  However, we found weaknesses in the areas noted below.  As a result of these deficiencies, we question $160,282 in grant funds.1

The OCSO charged unallowable costs to the Accelerated Hiring, Education, and Deployment (AHEAD) grant ($2,725), Universal Hiring Program (UHP) supplements to the AHEAD grant ($67,750), and UHP 2001 grant ($6,164) for compensatory time, birthdays, bereavement leave, salaries for officers hired before the start date of the grants, and associated fringe benefits.
The OCSO could not demonstrate the redeployment of full-time equivalent (FTE) positions ($83,643) required by the Making Officer Redeployment Effective (MORE) 1995 grant during the retention period.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.


Footnotes

The Inspector General Act of 1988 contains our reporting requirements for questioned costs.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for a definition of questioned costs.